No. A-________

In the Supreme Court of the United States
KEITH PUNTENNEY; LAVERNE I. JOHNSON; RICHARD R. LAMB, TRUSTEE OF THE
RICHARD R. LAMB REVOCABLE TRUST; MARIAN D. JOHNSON BY HER AGENT VERDELL
JOHNSON; NORTHWEST IOWA LANDOWNERS ASSOCIATION; AND
IOWA FARMLAND OWNERS ASSOCIATION, INC.,

Applicants,
v.
IOWA UTILITIES BOARD, A DIVISION OF THE DEPARTMENT OF COMMERCE, STATE OF
IOWA; OFFICE OF CONSUMER ADVOCATE; THE MAIN COALITION;
DAKOTA ACCESS, LLC; AND SIERRA CLUB IOWA CHAPTER,

Respondents.
On Application For An Extension of Time To File
A Petition For A Writ of Certiorari To
The Supreme Court of Iowa
CERTIFICATE OF SERVICE
I hereby certify that on this 16th day of August, 2019, I caused one paper
copy of the Application for An Extension of Time to File A Petition for A Writ of
Certiorari to the Supreme Court of Iowa to be served on the following by Federal
Express:

1341012

Benjamin John Flickinger
David Jay Lynch
Iowa Utilities Board
1375 East Court Avenue, Room 69
Des Moines, Iowa 50319-0069
Email: ben.flickinger@iub.iowa.gov
david.lynch@iub.iowa.gov

Wallace L. Taylor
Law Offices of Wallace L. taylor
118 3rd Ave. S.E., Suite 326
Cedar Rapids, Iowa 52401
E-mail: wtaylorlaw@aol.com

Attorneys for Respondent Sierra Club
Iowa Chapter

Attorneys for Respondent Iowa
Utilities Board
Bret Alan Dublinske
Brant M. Leonard
Fredrickson & Byron, P.A.
505 East Grand Avenue, Suite 200
Des Moines, Iowa 50309
Email: bdublinske@fredlaw.com
bleonard@fredlaw.com

Matthew C. McDermott
Espnola F. Cartmill
Belin McCormick, P.C.
666 Walnut Street, Suite 2000
Des Moines, Iowa 50309-3989
E-mail: efcartmill@belinmccormick.com
mmcdermottr@belinmccormick.com

Attorneys for Respondent Dakota
Access, LLC

Attorneys for Respondent The Main
Coalition

Mark Schuling
John Stewart Long
Office of Consumer Advocate
1375 East Court Avenue, Rm 63
Des Moines, Iowa 50319-0063
Email:mark.schuling@oca.iowa.gov
john.long@oca.iowa.gov

Attorneys for Respondent Office of
Consumer Advocate

1341012

1

I hereby certify that all parties required to be served have been served. I
declare under penalty of perjury that the foregoing is true and correct.
Executed on August 16, 2019.
/s/ Eduardo E. Santacana
Eduardo E. Santacana

Counsel of Record

KEKER, VAN NEST & PETERS LLP
633 Battery St.
San Francisco, CA 94111
(415) 391-5400
esantacana@keker.com

Counsel for Applicants

1341012

2

